A

Case: 19-11101

Document: 00515527736

Page: 1

Date Filed: 08/14/2020

United States Court of Appeals
for the Fifth Circuit
United States Court of Appeals
Fifth Circuit

FILED

No. 19-11101
Summary Calendar

August 14, 2020
Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Wesley Wayne Wakeford,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-112-4
Before Clement, Higginson, and Engelhardt, Circuit Judges.
Per Curiam:*
Wesley Wayne Wakeford pleaded guilty to conspiring to possess with
intent to distribute methamphetamine and was sentenced within the advisory
guidelines range to 71 months in prison. On appeal, he challenges the district
court’s application of a two-level enhancement, its failure to apply a two-level

*

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should
not be published and is not precedent except under the limited circumstances set forth in
5TH CIR. R. 47.5.4.

Case: 19-11101

Document: 00515527736

Page: 2

Date Filed: 08/14/2020

No. 19-11101

reduction, and its failure to grant a downward variance. We find no error and
affirm.
Because Wakeford’s offense involved methamphetamine imported
from Mexico, the district court applied an enhancement under U.S.S.G.
§ 2D1.1(b)(5).

Wakeford does not dispute the origin of the drug but

maintains that based on our decision in United States v. Rodriguez, 666 F.3d
944 (5th Cir. 2012), the enhancement also required a showing of proximity,
familiarity, and repeated business with the importers. This argument is
foreclosed by United States v. Foulks, 747 F.3d 914, 914-15 (5th Cir. 2014), as
Wakeford acknowledges. Although he argues that Foulks was wrongly
decided, one panel of this court may not overturn the decision of another
panel absent an intervening change in the law. See Jacobs v. Nat’l Drug
Intelligence Ctr., 548 F.3d 375, 378 (5th Cir. 2008).
Wakeford also contends he should have received a minor-role
adjustment under U.S.S.G. § 3B1.2(b). Even assuming this contention was
preserved in the district court, it fails. Whether a defendant qualifies as a
minor participant under § 3B1.2(b) is a factual question reviewed for clear
error, and a factual finding is not clearly erroneous if it is plausible in light of
the record as a whole. See United States v. Gomez-Valle, 828 F.3d 324, 327
(5th Cir. 2016). A defendant is entitled to a § 3B1.2 adjustment only if he
shows by a preponderance of the evidence that he is substantially less
culpable than the average participant in an offense. United States v. Castro,
843 F.3d 608, 613 (5th Cir. 2016). Wakeford, who presented no evidence
concerning the offense at issue, has not done that. He fails to establish that
the district court clearly erred. See Gomez-Valle, 828 F.3d at 327.
Lastly, we consider Wakeford’s argument that the district court erred
in not granting a downward variance, a claim that “amounts to a challenge to
the substantive reasonableness” of the sentence imposed. United States v.

2

Case: 19-11101

Document: 00515527736

Page: 3

Date Filed: 08/14/2020

No. 19-11101

Douglas, 957 F.3d 602, 609 (5th Cir. 2020) (internal quotation marks and
citation omitted). We review for substantive reasonableness under an abuseof-discretion standard. See United States v. Odom, 694 F.3d 544, 547 (5th Cir.
2012). Because Wakeford’s 71-month sentence falls within the guidelines
range of 57 to 71 months, it is entitled to a presumption of reasonableness.
See United States v. Alonzo, 435 F.3d 551, 553-54 (5th Cir. 2006). “The
presumption is rebutted only upon a showing that the sentence does not
account for a factor that should receive significant weight, it gives significant
weight to an irrelevant or improper factor, or it represents a clear error of
judgment in balancing sentencing factors.” United States v. Cooks, 589 F.3d
173, 186 (5th Cir. 2009). Although Wakeford argues that the district court
failed to consider his allegedly minor role, the record shows that the court
listened to his arguments in mitigation but assigned greater weight to his
criminal history. We will not reweigh the district court’s balancing of
relevant factors, see Douglas, 957 F.3d at 609-10, and accordingly conclude
that the court’s sentence was substantively reasonable.
AFFIRMED.

3

B

Case 4:19-cr-00112-A Document 248 Filed 09/27/19

Page 1 of 5 U.S.
PageID
787
DISTRICT
COURT
NORTIIERN DISTRICT OF TEXAS

FILED

Wnttel.Y

:mtstritt <!toil t

Northern District of Texas
Fort Worth Division

UNITED STATES OF AMERICA

§

V.

§

WESLEY WAYNE WAKEFORD

§

SEP 2 7 2019
CLERK, U.S. DISTRICT COURT
By..__'11b::':cp:::;ut'::"y- - -

Case Number: 4: 19-CR-112-A(04)

JUDGMENT IN A CRIMINAL CASE
The government was represented by Assistant United States Attorney Laura Montes. The
defendant, WESLEY WAYNE WAKEFORD, was represented by George DeWayne Huston.
The defendant pleaded guilty on April 24, 2019 to the one count Second Superseding
lnfonnation filed on April 19, 2019. Accordingly, the court ORDERS that the defendant be, and
is hereby, adjudged guilty of such count involving the following offense:
Title & Section I Nature of Offense
21 U.S.C. § 846(21 U.S.C. §§ 841(a)(1)and(b)(1)(C))
Conspiracy to Possess with Intent to Distribute a Controlled Substance

Date Offense Concluded

Count

February2!,20!9

I

On motion of the United States, the court ORDERS as to this defendant that the information
filed April 16,2019, be, and is hereby, dismissed.
As pronounced and imposed on September 27, 2019, the defendant IS sentenced as
provided in this judgment.
The court ORDERS that the defendant immediately pay to the United States, through the
Clerk of this Court, a special assessment of $100.00.
The court further ORDERS that the defendant shall notify the United States Attorney for
this district within 30 days of any change of name, residence address, or mailing address, as set
forth below, until all tines, restitution, costs, and special assessments imposed by this Judgment
are fully paid. If ordered to pay restitution, the defendant shall notify the court, through the clerk
of this court, and the Attorney General, through the United States Attorney for this district, of
any material change in the defendant's economic circumstances.
IMPRISONMENT
The court further ORDERS that the defendant be, and is hereby, committed to the
custody of the United States Bureau of Prisons to be imprisoned for a term of71 months. This
sentence shall run consecutively to any sentence which may be imposed in Case No. CR204 78 in
271" Judicial District Court of Wise County.

19-11101.73

Case 4:19-cr-00112-A Document 248 Filed 09/27/19

Page 2 of 5 PageID 788

The court recommends to the Bureau of Prisons that defendant be allowed to participate
in the Institution Residential Drug Abuse Treatment Program. The Bureau of Prisons to notifY
the court ifthe defendant cannot participate in the Institution Residential Drug Abuse Treatment
Program, and is to give the court an explanation of why the defendant cannot participate.
The defendant is remanded to the custody of the United States Marshal.
SUPERVISED RELEASE
The court further ORDERS that, upon release from imprisonment, the defendant shall be
on supervised release for a term of three (3) years and that while on supervised release, the
defendant shall comply with the standard conditions ordered by this Court and shall comply with
the following additional conditions:
I.

The defendant shall not commit another federal, state, or local crime.

2.

The defendant shall not unlawfully possess a controlled substance.

3.

The defendant shall cooperate in the collection of DNA as directed by the U.S. Probation
Officer, as authorized by the Justice for All Act of 2004.

4.

The defendant shall refrain from any unlawful use of a controlled substance, submitting
to one drug test within 15 days of release from imprisonment and at least two periodic
drug tests thereafter, as directed by the probation officer pursuant to the mandatory drug
testing provision of the 1994 crime bill.

5.

The defendant shall participate in mental health treatment services as directed by the
probation officer until successfully discharged, which services may include prescribed
medications by a licensed physician, with the defendant contributing to the costs of services
rendered at a rate of at least $25 per month.

6.

The defendant shall participate in a program approved by the probation officer for
treatment of narcotic or drug or alcohol dependency that will include testing for the
detection of substance use, abstaining from the use of alcohol and all other intoxicants
during and after completion of treatment, contributing to the costs of services rendered at
the rate of at least $25 per month.

7.

The defendant shall also comply with the Standard Conditions of Supervision as
hereinafter set forth.

Standard Conditions of Supervision
I.

The defendant shall report in person to the probation office in the district to which the
defendant is released within seventy-two (72) hours of release from the custody of the
Bureau of Prisons.

2.

The defendant shall not possess a firearm, destructive device, or other dangerous weapon.
2
19-11101.74

Case 4:19-cr-00112-A Document 248 Filed 09/27/19

Page 3 of 5 PageID 789

3.

The defendant shall provide to the U.S. Probation Officer any requested financial
information.

4.

The defendant shall not leave the judicial district where the defendant is being supervised
without the permission of the Court or U.S. Probation Officer.

5.

The defendant shall report to the U.S. Probation Officer as directed by the court or U.S.
Probation Officer and shall submit a truthful and complete written report within the first
five (5) days of each month.

6.

The defendant shall answer truthfully all inquiries by the U.S. Probation Officer and
follow the instmctions of the U.S. Probation Officer.

7.

The defendant shall support his dependents and meet other family responsibilities.

8.

The defendant shall work regularly at a lawful occupation unless excused by the U.S.
Probation Officer for schooling, training, or other acceptable reasons.

9.

The defendant shall notify the probation officer at least ten (10) days prior to any change
in residence or employment.

I 0.

The defendant shall refrain from excessive use of alcohol and shall not purchase, possess,
use, distribute, or administer any narcotic or other controlled substance, or any
paraphernalia related to such substances, except as prescribed by a physician.

II.

The defendant shall not frequent places where controlled substances are illegally sold,
used, distributed, or administered.

12.

The defendant shall not associate with any persons engaged in criminal activity, and shall
not associate with any person convicted of a felony unless granted permission to do so by
the U.S. Probation Officer.

13.

The defendant shall permit a probation officer to visit him at any time at home or
elsewhere and shall permit confiscation of any contraband observed in plain view by the
U.S. Probation Officer.

14.

The defendant shall notify the probation officer within seventy-two (72) hours of being
arrested or questioned by a law enforcement officer.

15.

The defendant shall not enter into any agreement to aetas an informer or a special agent
of a law enforcement agency without the permission of the court.

16.

As directed by the probation officer, the defendant shall notifY third parties of risks that
may be occasioned by the defendant's criminal record or personal history or
characteristics, and shall permit the probation officer to make such notifications and to
confirm the defendant's compliance with such notification requirement.

3
19-11101.75

Case 4:19-cr-00112-A Document 248 Filed 09/27/19

Page 4 of 5 PageID 790

The court hereby directs the probation officer to provide defendant with a written
statement that sets forth all the conditions to which the term of supervised release is subject, as
contemplated and required by 18 U.S.C. § 3583(f).

The court did not order a fine because the defendant does not have the financial resource
or future earning capacity to pay a fine.

STATEMENT OF REASONS
The "Statement of Reasons" and personal infonnation about the defendant are set forth
on the attachment to this judgment.
Signed this the 27th day of September, 2019.

JUDGE

4
19-11101.76

Case 4:19-cr-00112-A Document 248 Filed 09/27/19

Page 5 of 5 PageID 791

RETURN
I have executed the imprisonment part of this Judgment as follows:

Defendant delivered on - - - - - - - ' 2019 t o - - - - - - - - - - , - - - - - a t - - - - - - - - - - - - - - - - - - - ' with a certified copy of this Judgment.

United States Marshal for the
Northern District of Texas
Deputy United States Marshal

5
19-11101.77

